IN THE SUPREME COURT OF TI{E UNITED STATES

TERRY DIBBLE,

)
)
)
)
)
)
)

VS

DEANNA BROOKHART,
Respondent.

On Petition for Writ of
Certiorari to the Missouri
Supreme Court

PROOF OF SER\rICE
I hereby certifr that on the 7e day of September,202t, in compliance with
Supreme Court Rule 29.3,I served a copy of the following documents upon

counsel for the respondent: Petition for Writ of Certiorari to the Seventh Circuit

Court of Appeals; Motion to Proceed In Forma Pauperis and Proof of Service.
Such service was obtained by mailing documents via first class mail with
postage fully prepaid and properly affixed thereto at Clayton, Missouri, addressed

to
Kwame Raoul
Attorney General
Office of the Illinois Attorney General
100 West Randolph Street
Chicago, IL 60601

I

L. SCHRIENER
(Counsel of Record)
Law and Schriener, LLC
141 North Meramec Avenue, Suite 314
Clayton, Missouri 63105
(314) 7X-7A95 - telephone
(314) 863-7096 - facsimile
kschriener@schrienerlaw. com

Counselfor Petitioner

Dated this 7ft day of September ,2A21.

-2-

